PRESS STATEMENT

                                     UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                               OFFICE OF INSPECTOR GENERAL
                                                   Washington, D.C. 20460




                                                         August 22, 2003
                                                                                  Contact: Eileen McMahon
                                                                                webcomments.oig@epa.gov
                                                                                           (202) 566-2391


                     _______________________________________________________


Statement of Nikki L. Tinsley, Inspector General, U.S. Environmental Protection Agency on the Office of
Inspector General (OIG) report, “EPA’s Response to the World Trade Center Collapse: Challenges,
Successes, and Areas for Improvement” an evaluation of how EPA reacted to the September 11, 2001,
collapse of the World Trade Center towers in New York City.


“This report, initiated by the OIG early in 2002, found that EPA staff did a commendable job reacting to
the unprecedented disaster. Nonetheless, many problems were encountered and changes should be
made so that EPA can better respond to future disasters.


Our evaluation was performed by a dedicated team that interviewed more than one hundred people,
including key officials, air quality experts, rescue and demolition workers, and residents. The team also
reviewed extensive documentation, to get a clear picture of how EPA responded to the World Trade
Center collapse and how it can better respond to disasters in the future.


While EPA has already initiated actions as a result of its own internal lessons learned exercises, our
report offers further recommendations that should result in improved contingency planning, risk
assessment and characterization, and risk communication. A primary finding in our evaluation is that EPA
needs to be prepared to assert its opinion and judgment on matters that impact human health and the
environment, regardless of who else is involved or may share responsibility. Ultimately, the public,
Congress, and others expect EPA to monitor and resolve environmental issues.


Evidence gathered through government hearings, news reports, public polls, health studies, and our own
interviews indicated that the public did not receive sufficient air quality information and wanted more
information on health risks. Because of those concerns, the Office of Inspector General conducted a
survey of approximately 10,000 New York City residents regarding government communications, and the
effectiveness in informing the public. The results of the survey are being evaluated and will be issued as
a separate report.


In this report we state that while EPA’s actions to address health risks from indoor air pollutants in the
World Trade Center area were consistent with applicable statutes and regulations, EPA could have taken
a more proactive approach. Although statutes and regulations allowed for local agencies to lead the
response, and New York City initially took that lead, the City’s actions were criticized.


The OIG acknowledges the hard work and effort of EPA employees as well as those from all levels of
government in responding to this tragedy. Our report notes areas where things could have been done
better, but it in no way diminishes the efforts of those involved.


Unfortunately, our country lives under the threat of future terrorist attacks, and it is important that we
use what we have learned from the World Trade Center tragedy to make improvements to our
emergency response capabilities. It is our hope that this report will inform that discussion and help EPA
in its efforts to improve its ability to respond to large scale emergencies.”




                             EPA Response to the World Trade Center Collapse
                                Supplemental Appendices Table of Content
